<html>
<title> - NOMINATION OF DANIEL R. LEVINSON</title>
<body><pre>[Senate Hearing 107-155]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-155
 
                    NOMINATION OF DANIEL R. LEVINSON

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 ON THE

NOMINATION OF DANIEL R. LEVINSON TO BE INSPECTOR GENERAL OF THE GENERAL 
                        SERVICES ADMINISTRATION

                               __________

                             JULY 31, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
75-476                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
            Michael L. Alexander, Professional Staff Member
              Jason M. Yanussi, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
                Ellen B. Brown, Minority Senior Counsel
           William M. Outhier, Minority Investigative Counsel
                   Johanna L. Hardy, Minority Counsel
                     Darla D. Cassell, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     2

                                WITNESS
                        Thursday, July 31, 2001

Daniel R. Levinson to be Inspector General of the General 
  Services Administration........................................     3
    Prepared statement...........................................     9
    Biographical and financial information.......................    14
    Pre-hearing questions and responses..........................    22


NOMINATION OF DANIEL R. LEVINSON TO BE INSPECTOR GENERAL OF THE GENERAL 
                        SERVICES ADMINISTRATION

                              ----------                              


                         TUESDAY, JULY 31, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Thompson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The Committee will come to order. We 
are here this afternoon to consider the nomination of Daniel R. 
Levinson to be the Inspector General of the General Services 
Administration. Mr. Levinson, welcome to the Committee. I know 
that having been confirmed previously by the Senate for the 
position of Chairman of the Merit Systems Protection Board, you 
are no stranger to these arcane proceedings. Hopefully, we can 
move with dispatch today.
    As you already know, the IG's position at GSA is very 
important to the overall operation of our government. GSA is 
one of only three executive agencies with government-wide 
responsibility. It is the Federal Government's central 
management agency for administrative services and its 
activities are vital to the ability of all agencies to achieve 
their respective missions. GSA's anticipated budget for fiscal 
year 2002 is $18.2 billion, and through its contracting 
responsibilities, GSA will directly place another $37 billion 
in commercial purchases for agencies across the government. The 
Inspector General's role is to promote economy, efficiency and 
effectiveness within GSA and to detect fraud, waste and abuse 
in the agency's programs and operations. Given GSA's 
relationship with all Federal agencies, the Inspector General, 
obviously, is a key player in ensuring that literally billions 
of dollars of taxpayer money are properly managed and accounted 
for.
    The previous IG's most recent assessment of the major 
challenges at GSA identifies several issues, which this 
Committee has raised through various channels, including under 
the leadership of my distinguished predecessor and colleague, 
Senator Thompson. They include management controls, information 
technology solutions, procurement activities, human capital, 
aging Federal buildings and, perhaps most importantly, the 
protection of our Federal personnel and facilities. Helping GSA 
adequately address these and other areas of concern will be a 
major challenge of the IG.
    Mr. Levinson, I am pleased that you have accepted this 
challenge and I look forward to hearing your ideas about how 
you will address some of these issues. I also look forward, as 
is the custom of this Committee, to working closely with you in 
your capacity as Inspector General, should you be confirmed by 
the Senate.
    Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Well, thank you, Mr. Chairman. I, too, 
want to welcome Mr. Levinson back into public service and I 
express my appreciation to you for scheduling this hearing. 
Hopefully, we can act on this nomination and Mr. Levinson can 
be confirmed before the August recess. It is important that we 
get inspectors general in place to carry out their mission that 
has been established, as you said, to promote the economy, 
efficiency and effectiveness, and detect waste, fraud and abuse 
and mismanagement in government programs and operations.
    GSA's mission, as stated in the fiscal year 2002 budget 
justification, is to provide policy leadership and expert 
solutions and services, space and products at the best value to 
enable Federal employees to accomplish their missions. This is 
implemented in a variety of ways through a variety of 
organizations, including the Public Building Service, the 
Federal Technology Service, the Federal Supply Service and the 
Office of Government-wide Policy. The GSA Inspector General 
will have an opportunity to evaluate these operations and 
assist GSA as it seeks to adopt more business-like practices 
and streamline its organizations, cut overhead, cut unnecessary 
costs and re-engineer the processes to deliver quality goods 
and services to its customers.
    Dan Levinson has served as Chairman of the Merit Systems 
Protection Board, General Counsel of the Consumer Products 
Safety Commission and as Deputy General Counsel at the Office 
of Personnel Management. He also was in private practice and in 
academia. I believe that Mr. Levinson has the experience and 
background to take on these challenges, and I am pleased that 
after many years of public service, he is again willing to 
reenter the public service. He is the kind of person we need 
giving a portion of his career to government. I am pleased to 
see that. Thank you and best of luck to you.
    Chairman Lieberman. Thanks, Senator Thompson.
    For the record, Mr. Levinson has submitted responses to a 
biographical and financial questionnaire, has answered 
prehearing questions submitted by the Committee and additional 
questions from individual Senators, and has had his financial 
statement reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record with the exception of the financial data, which is on 
file and available for inspection in the Committee's offices. 
In addition, the FBI file has been reviewed by Senator Thompson 
and me, pursuant to Committee rules.
    Mr. Levinson, before we proceed I would like to give you an 
opportunity to introduce family members that may be with us 
this afternoon.
    Mr. Levinson. Thank you very much, Mr. Chairman. I would 
like to introduce my wife, Luna, and sitting next to her--and 
let me note that I understand you have among your children a 
daughter named Hannah.
    Chairman Lieberman. I do.
    Mr. Levinson. To Luna's right is my younger daughter, 
Hannah.
    Chairman Lieberman. I was already inclined to support your 
nomination. I am now more vigorously inclined, yes.
    Mr. Levinson. To her right is my older daughter, Claire.
    Chairman Lieberman. Welcome to all of you. You have a lot 
to be proud of.
    Mr. Levinson, our Committee rules require that all 
witnesses at nomination hearings give their testimony under 
oath, so would you please stand and raise your right hand? Do 
you solemnly swear that the testimony you are about to give is 
the truth, the whole truth and nothing but the truth, so help 
you, God?
    Mr. Levinson. I do.
    Chairman Lieberman. Thank you. Please be seated. Mr. 
Levinson, if you have an opening statement, we would be happy 
to hear it at this time.

TESTIMONY OF DANIEL R. LEVINSON \1\ TO BE INSPECTOR GENERAL OF 
              THE GENERAL SERVICES ADMINISTRATION

    Mr. Levinson. Thank you very much, Mr. Chairman. I want to 
begin by noting that my parents were unable to make the trip to 
Washington today, but please let me take this occasion to 
express my deep love for and continuing gratitude to my father, 
Gerald Levinson, and to my mother, Dr. Risha Levinson, of 
Garden City, New York.
---------------------------------------------------------------------------
     \1\ The prepared statement of Mr. Levinson appears in the Appendix 
on page 9.
      Biographical and financial information appears in the Appendix on 
page 14.
      Pre-hearing questions and responses appear in the Appendix on 
page 22.
---------------------------------------------------------------------------
    Especially given this busy period for the Committee and the 
Senate, I thank you for this opportunity to appear before the 
Committee this afternoon. I also want to thank the Committee 
staff for taking the time to meet with me last week. I have a 
prepared statement that in the interest of efficiency--
important for a prospective IG--I would ask your consent to 
have inserted in the record, and I would be glad to speak 
briefly and then go right to your questions.
    First, I would like to say that I am grateful to the 
President for the honor of this nomination. As this Committee 
knows well, GSA is charged by Congress to perform a very big 
job on behalf of the American taxpayer. It is the Federal 
Government's provider of office space, products, services and 
technology affecting over $58 billion in transactions. It also 
is responsible for protecting the life and safety of employees 
and public visitors in Federal buildings. The job of Inspector 
General is to a great degree defined by the agency's mission 
and charter, and the very large responsibilities placed on GSA 
in turn place large responsibilities on its Office of Inspector 
General in the performance of its core audit and investigative 
roles.
    As I have noted in my prepared statement, I have had the 
honor of serving in several senior posts in the Executive 
Branch over the course of a 25-year career, and I very much 
appreciate you and Senator Thompson noting that service in your 
introductory remarks. If confirmed, I welcome the major 
challenge and unique opportunity that this position affords in 
contributing to the effective and efficient operations of the 
Federal Government. As GSA seeks to improve on the ways in 
which it carries out its mission, an effective Office of 
Inspector General must be well-equipped and nimble to keep up 
with the pace of change. I commit myself to working with the 
agency and with this Committee and the Congress to ensure that 
GAO's OIG not only maintains its core abilities to prevent 
fraud, waste and abuse, but that it serve as a catalyst for 
positive change.
    I welcome your questions, Mr. Chairman.
    Chairman Lieberman. Thank you for that thoughtful opening 
statement. I am going to start by asking you certain questions 
that we ask of all nominees. First, is there anything you are 
aware of in your background which might present a conflict of 
interest with the duties of the office to which you have been 
nominated?
    Mr. Levinson. No.
    Chairman Lieberman. Do you know of anything personal or 
otherwise that would, in any way, prevent you from fully and 
honorably discharging the responsibilities as Inspector General 
of the General Services Administration?
    Mr. Levinson. No, Mr. Chairman.
    Chairman Lieberman. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Levinson. Yes, I do.
    Chairman Lieberman. Thank you. I have just a few questions. 
The first is about e-Government. As you may know, e-Government 
is one of my personal priorities here on this Committee. I am 
convinced that this is one of the keys to creating a more 
efficient, cost-effective and citizen-accessible government, by 
transferring more of the government onto the net, but also 
using information technology more effectively. I am pleased 
that you indicated in prehearing communication with the 
Committee that if confirmed as IG, you anticipate an important 
role for GSA's Inspector General as e-Government develops. I 
wonder if you could elaborate briefly on how you view the IG's 
responsibility in this area?
    Mr. Levinson. Mr. Chairman, I view the entire IT arena as 
an extremely important emerging area for activity, certainly by 
IGs government-wide, and collectively, through the President's 
Council on Integrity and Efficiency, as well as across agency 
lines. We must work to ensure that as the significant 
investments are made in e-Government, that they are made with 
careful thought, both about how the networks will actually 
deliver service and how those networks are protected from 
unauthorized or improper access. It just so happens that we are 
meeting on a day when a significant virus is expected to hit 
the Internet. This underscores how timely, and in a sense how 
timeless, this issue is, that it is not just a matter of coming 
up with perhaps one specific fix for any particular problem 
that may emerge on a particular day, but that, systematically, 
we need to be prepared government-wide.
    IGs, because of the mission that IGs have, have a unique 
responsibility to ensure that through their IT audit work, as 
well as through their work with PCIE, OMB and GAO, that they 
work aggressively to make sure that those services are provided 
with the appropriate controls.
    Chairman Lieberman. I appreciate the answer. I hope you 
will not hesitate as you proceed with your work, if it 
generates thoughts that you have about how to improve e-
Government more broadly, that you would not hesitate to be in 
touch with the Committee.
    Mr. Levinson. Yes, I will. I appreciate that, Mr. Chairman.
    Chairman Lieberman. Let me go to the subject of building 
security. Upgrading the security of Federal buildings continues 
to be a major challenge for GSA. In July 1995, GSA launched a 
multimillion dollar program to strengthen security at 8,300 
buildings under its control. While GSA has made progress, the 
GAO has reported that GSA cannot pinpoint the program's exact 
cost or status. Also, GSA has not established program outcome 
measures and, consequently, does not know the extent to which 
completed upgrades have resulted in greater security.
    I think that effectively monitoring GSA's progress in this 
area is a key challenge that faces you as incoming Inspector 
General. I know from my staff that you have expressed a 
commitment to keep the issue of security for employees at our 
Federal buildings right at the top of your agenda, and I just 
wondered today if you have any preliminary thoughts about 
working with other law-enforcement agencies in this effort.
    Mr. Levinson. Mr. Chairman, in the most recent semi-annual 
report of the GSA OIG, it was indicated that there is still a 
good deal of work to be done in making more effective the 
intelligence-sharing program that GSA has been an integral part 
of. It does strike me that it would be of key importance, 
again, to be working across agency lines, working with the 
Justice Department, with the Treasury Department, with 
resources around the Executive Branch to ensure that the 
security provided is done in an integrated way.
    Going back to my experience, having done Congressional 
staff work in Conference on the 1996 anti-terrorism bill, and 
having had an opportunity and, indeed, the privilege, of 
meeting some of the families of the victims of the Oklahoma 
City bombing--those instances really bring home in a very 
personal way how much depends on our ability to address the 
security needs around the country, and in some respects, around 
the globe. I do not certainly, this afternoon, have any quick 
verbal formula to share with you on that.
    Chairman Lieberman. Understood.
    Mr. Levinson. But I do think that there could be no more 
important issue for the agency and for the Inspector General 
than to ensure that this kind of security issue--certainly 
computer security and other security issues are important, but 
physical security never take second-place to anything else.
    Chairman Lieberman. Absolutely. Thank you. My final 
question is on the persistence of waste, fraud and abuse in 
government. In your responses to the Committee's written 
questions, you shared your belief that waste, fraud and abuse 
will probably always be issues of concern to our government. 
You also indicated that you would employ expertise in 
management analysis to gain a more complete understanding of 
the relationship between acute problems and the underlying 
systemic issues. I thought that was a very interesting 
statement, and I wonder if you wanted to elaborate on that a 
bit today. I am interested whether you have utilized that 
expertise to address systemic problems at other times in your 
career in government.
    Mr. Levinson. Well, thank you, Mr. Chairman. I certainly 
was afforded a wonderful opportunity to address systematic 
issue as chairman of the MSPB earlier in my career. There we 
integrated the important work of the Board in adjudicating work 
place due process cases with the Board's merit studies 
function, so that the studies were informed by the real world 
experience of individual disputes in the workplace.
    This is, as you know well, a very, very large enterprise. 
When you deal with a couple of million people who are 
exercising such a broad array of responsibilities, it is an 
enormous challenge for executive leaders to understand where 
the synergies are, where you can pinpoint how a change in a 
particular system or a change in a particular management 
operating method can have a ripple effect throughout an agency 
and throughout the Executive Branch. We certainly tried to do 
that at the board. More often than not, we probably were not 
able to succeed as much as we would like, but by having the 
issue presented, I think we laid a very good foundation for 
better things to happen in the future.
    Chairman Lieberman. That is a thoughtful response. Let me 
just mention one other observation that we have made on the 
Committee, which is the inclination of IGs in recent years, not 
just to focus on the kind of independent watchdog role by which 
they have performed such extraordinary service, uncovering 
literally billions of dollars in waste and fraud or abuse, but 
also in trying to play a proactive kind of preventive role, to 
help the agencies avoid the difficulties in the first place. It 
seems to me that the challenge--and I think that is a good 
step--in combining those functions is obviously--or perhaps I 
should say so evidently--to be certain that the independence 
necessary for the first role as the watchdog is not compromised 
by a kind of collegial relationship that might develop in the 
second role, of being the preventive, the adviser to 
proactively prevent problems. I do not know whether you want to 
comment on that or not.
    Mr. Levinson. I would, Mr. Chairman. It is an interesting 
issue that you raise here, and in a sense, I think Congress was 
struggling with exactly that in 1978, during its consideration 
of both the Inspector General Act as well as the Civil Service 
Reform Act. Coincidentally, the two acts were passed within 24 
hours of each other. I think the language of the IG Act reveals 
a struggle to incorporate, in one operation, a multi-tasked 
list of very important structural duties. I think on the civil 
service side, there was the struggle with the Special Counsel 
and its relationship with the merit board. And some of the 
language there is reflected in the IG Act, as well.
    The language of the IG statute, codified as an appendix to 
Title V, reflects an encouragement to IGs to make the case 
internally and to work with the Congress to show how the day-
to-day issues involved in the investigative and audit work 
draws connections with important, systematic or structural 
reforms. The IG needs to carry that forward, not just do that 
very important foundation work with the investigative and audit 
responsibility, but then to ensure that the leadership in the 
agency and the relevant committees of Congress are aware of 
what systematically the implications of that audit and 
investigative work really mean.
    Chairman Lieberman. Again, a very thoughtful answer. I do 
not have any more questions. I hope that we can put your 
nomination on the agenda for a markup that we have this 
Thursday, and move it out quickly. It should not be 
controversial.
    I thank you for your willingness to serve the public again 
in the Federal Government. I thank your family for their 
support and acceptance of the fact that you are returning to 
public service. I say that on behalf of my wife and children, 
who are not here today. I believe we have done it. Every 
confirmation hearing should go this well.
    The hearing is adjourned.
    [Whereupon, at 2:52 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5476.001

[GRAPHIC] [TIFF OMITTED] T5476.002

[GRAPHIC] [TIFF OMITTED] T5476.003

[GRAPHIC] [TIFF OMITTED] T5476.004

[GRAPHIC] [TIFF OMITTED] T5476.005

[GRAPHIC] [TIFF OMITTED] T5476.006

[GRAPHIC] [TIFF OMITTED] T5476.007

[GRAPHIC] [TIFF OMITTED] T5476.008

[GRAPHIC] [TIFF OMITTED] T5476.009

[GRAPHIC] [TIFF OMITTED] T5476.010

[GRAPHIC] [TIFF OMITTED] T5476.011

[GRAPHIC] [TIFF OMITTED] T5476.012

[GRAPHIC] [TIFF OMITTED] T5476.013

[GRAPHIC] [TIFF OMITTED] T5476.014

[GRAPHIC] [TIFF OMITTED] T5476.015

[GRAPHIC] [TIFF OMITTED] T5476.016

[GRAPHIC] [TIFF OMITTED] T5476.017

[GRAPHIC] [TIFF OMITTED] T5476.018

[GRAPHIC] [TIFF OMITTED] T5476.019

[GRAPHIC] [TIFF OMITTED] T5476.020

[GRAPHIC] [TIFF OMITTED] T5476.021

[GRAPHIC] [TIFF OMITTED] T5476.022

[GRAPHIC] [TIFF OMITTED] T5476.023

[GRAPHIC] [TIFF OMITTED] T5476.024

[GRAPHIC] [TIFF OMITTED] T5476.025


</pre></body></html>
